            Office of Inspector General




September 20, 2004

NICHOLAS L. RINALDI
MANAGER, GREATER SOUTH CAROLINA DISTRICT

SUBJECT: Audit Report – Self-Service Vending Program – Greater South Carolina
         District (Report Number DR-AR-04-007)

This is one of a series of audit reports on the Self-Service Vending Program in the
Eastern Area. The report presents the results of our self-initiated audit on the
Self-Service Vending Program in the Greater South Carolina District (Project Number
04YG014DR003). The information in this district report will be included in a report to
the Eastern Area Vice President.

                                               Background

The Self-Service Vending Program, implemented in October 1964, is one of the Postal
Service’s major programs. It provides Postal Service customers with a convenient
alternative for purchasing stamps and other basic Postal Service products after
business hours and without the need to stand in line during business hours.

Nationwide, the Postal Service maintains approximately 30,000 vending machines
(27,000 self-service postal centers and 3,000 other types of vending equipment) that
generated over $1.9 billion in revenue during fiscal years (FY) 2001 through 2003.
During FY 2003, the Eastern Area had 4,242 pieces of vending equipment that
generated over $103 million in revenue, of which the Greater South Carolina District
maintained 10 percent (419) of the total area machines that generated over 10 percent
($10.7 million) of the total area vending revenue. During the first quarter of FY 2004,
the Eastern Area had 4,443 pieces of vending equipment that generated over
$27.9 million in revenue, of which the Greater South Carolina District maintained
10 percent (430) of the total area machines that generated 10 percent ($2.7 million) of
the total area vending revenue.1




1
 During the first quarter of FY 2004, the Eastern Area had 201 additional vending machines and the Greater South
Carolina District had 11 additional vending machines during the first quarter of FY 2004.

    1735 N Lynn St.
    Arlington, VA 22209-2020
    (703) 248-2100
    Fax: (703) 248-2256
Self-Service Vending Program                                                             DR-AR-04-007
 Greater South Carolina District


                           Objective, Scope, and Methodology
The objective of our audit was to determine whether the Self-Service Vending Program
is effectively and efficiently meeting program goals of increasing revenue and reducing
operating costs. Specifically, in this review, we determined whether Self-Service
Vending Program managers effectively redeployed vending equipment that does not
meet minimum revenue requirements in order to maximize revenue, and discontinued
the use of obsolete vending equipment. We also physically observed a judgmental
sample of 20 vending machines to determine whether the machines were operational
and easily accessible. For the 419 vending machines operating in the Greater South
Carolina District during FY 2003, 812 were classified as obsolete based on Postal
Service guidance, while the remaining 338 were classified as current equipment. For
the first quarter of FY 2004, 430 vending machines were operating in the Greater South
Carolina District, of which 853 were classified as obsolete, and the remaining 345 were
classified as current equipment.

During our audit, we visited Postal Service facilities and interviewed managers and
employees; reviewed documentation and applicable policies and procedures; and
analyzed data in the Postal Service’s Vending Equipment Sales and Service System
(VESS) for FY 2003 and the first quarter of FY 2004 to identify obsolete equipment and
equipment that did not meet the minimum revenue requirements.4 Although we relied
on data obtained from VESS, we did not test the validity of the data and controls over
the system.

Audit work associated with the Greater South Carolina District was conducted from
March through September 2004, in accordance with generally accepted government
auditing standards and included such tests of internal controls as were considered
necessary under the circumstances. We discussed our observations and conclusions
with appropriate management officials and included their comments, where appropriate.

                                       Prior Audit Coverage
The Office of Inspector General (OIG) has issued three reports related to the objective
of this audit.

Self-Service Vending Program - Tennessee District (Report Number DR-AR-04-003,
June 30, 2004), Self-Service Vending Program - Alabama District (Report Number
DR-AR-04-004, June 30, 2004), and Self-Service Vending Program - Atlanta District
(Report Number DR-AR-04-002, July 1, 2004). The reports stated that district officials
could improve their process for redeploying vending equipment that does not meet
minimum revenue requirements. In FY 2003, 54 percent (857 of 1,573) of the vending
machines in the Tennessee, Alabama, and Atlanta Districts did not meet the minimum
2
  This number includes three currency changer machines, which do not generate revenue.
3
  This number includes five currency changer machines, which do not generate revenue.
4
  Obsolete equipment was not included in the minimum revenue analysis.


                                                       2
Self-Service Vending Program                                                                           DR-AR-04-007
 Greater South Carolina District


revenue requirements and the districts may have missed revenue opportunities of
approximately $2.7 to $8.5 million by not redeploying this equipment. Additionally,
these districts continued to use 250 obsolete machines and possibly incurred
maintenance and repair expenses. Management agreed with all recommendations and
actions taken and planned were responsive to the recommendations.

                                               Audit Results
Opportunities exist for Greater South Carolina District officials to improve the
effectiveness and efficiency of the Self-Service Vending Program and to meet or exceed
program goals of increasing revenue and reducing operating costs. Specifically,
Greater South Carolina District officials could increase revenue opportunities by
redeploying equipment that does not meet minimum revenue requirements. Further,
Greater South Carolina District officials could possibly reduce maintenance and repair
costs by discontinuing the use of obsolete equipment. Additionally, while our physical
observation of vending machines in the Greater South Carolina District indicated that
overall the machines were easily accessible; the machines were not always operable.

Redeployment of Vending Equipment

Greater South Carolina District officials could improve their process for redeploying
vending equipment that does not meet Postal Service minimum revenue requirements.
Specifically, during FY 2003, our review of the vending equipment revenue reports
indicated that 50 percent (169 of 338) of the vending machines did not meet the
minimum revenue requirements. Vending equipment sales were approximately
$2.37 million, which was significantly less than the minimum revenue requirement of
$4.23 million. As a result, the Greater South Carolina District may have missed revenue
opportunities of approximately $530,000 to $1.86 million by not redeploying this
equipment.5

Additionally, during the first quarter of FY 2004, our review of vending equipment
revenue reports indicated that 48 percent (164 of 345) of the vending machines did not
meet the minimum revenue requirements. Vending equipment sales were
approximately $444,000, which was significantly less than the minimum revenue
requirement of $901,000. As a result, the Greater South Carolina District may have
missed revenue opportunities of approximately $457,000 by not redeploying this
equipment.


5
  For each vending machine, we calculated the shortfall in revenue compared to the established minimum for a
particular machine type and referred to this shortfall as “missed revenue opportunities.” The $530,000 represents the
minimum total possible missed revenue opportunities after giving consideration to Postal Service guidance, which
requires district officials to review revenue reports and take appropriate actions if a vending machine’s revenue does
not reach plan in three to six accounting periods. The $1.86 million represents the maximum total possible missed
revenue opportunities for the FY 2003 and is calculated by subtracting actual revenues generated from the total of all
machine minimum revenue requirements.




                                                        3
Self-Service Vending Program                                                                     DR-AR-04-007
 Greater South Carolina District


One of the Self-Service Vending Program’s goals is to increase revenue through the
redeployment of equipment. The Postal Service should redeploy equipment that does
not meet minimum revenue requirements to other locations. Postal Service policy,
Handbook PO-102, Self- Service Vending Operational and Marketing Program,
Chapter 2, Section 256, May 1999 (updated with Postal Bulletin revisions through
December 25, 2003), establishes the minimum revenue requirements for vending
machines. The district retail office is responsible for evaluating equipment revenue to
find the right location for the right machine. If self-service vending equipment is located
in an area where it is unable to generate enough revenue to meet the minimum
requirement, the equipment must be considered for redeployment. If revenue does not
meet the minimum requirement in three to six accounting periods, the district retail office
should place the equipment on a list for redeployment; notify any office where changes
will be made; prepare a typewritten or computer-generated notice, approved through the
district retail office, to be posted in the lobby informing customers 30 days before
removing the equipment; and complete Postal Service (PS) Form 4805, Maintenance
Work Order, and move the equipment to a better location.

District officials did not initiate any redeployment action for the underperforming vending
machines during FY 2003 and the first quarter of FY 2004 because of concern for the
potential adverse impact on customer service due to the nonavailability of machines.
District officials also indicated that the Self-Service Vending Program was not
considered the highest priority and limited resources were allocated to the program.
Work efforts were directed to higher priorities such as excessive wait times for window
sales. By not taking action to redeploy underperforming equipment, the district could
miss revenue opportunities during the remainder of FY 2004.

District officials also expressed concern regarding the Postal Service’s methodology to
establish minimum revenue requirements, and that the current requirements are too
high in relation to the machines geographic locations. We plan to forward the district’s
concern to Postal Service Headquarters.

We discussed the results with Greater South Carolina District officials and they agreed
they could improve their redeployment process for equipment that does not meet the
Postal Service’s minimum revenue requirements. District officials indicated that plans
are being made to reassess vending locations based on an analysis of vending
operations and receipt of 30 automated postal centers.6

Recommendation

We recommend the Manager, Greater South Carolina District, direct the Retail Manager
to:



6
 Automated postal centers are a newly developed kiosk that provides convenient 24-hour automated access to
purchase stamps as well as many premium delivery services such as Express and Priority Mail.



                                                     4
Self-Service Vending Program                                                                  DR-AR-04-007
 Greater South Carolina District


1. Review revenue reports to identify underperforming equipment; notify postmasters of
   vending equipment that generates low revenue; and giving consideration to all
   feasible alternatives, complete all necessary actions to redeploy underperforming
   equipment as often as possible.

Management’s Comments

Management agreed that opportunities exist to improve the effectiveness and efficiency
of the Self-Service Vending Program and has evaluated district vending equipment
performance and developed a plan of action to remove or relocate nonperforming
vending equipment. The Retail Manager and Vending Coordinator will continue to
identify equipment not meeting minimum requirements, notify postmasters of
nonperformance, and redeploy the nonperforming equipment, where possible.
Management stated that decisions regarding removal or relocation include
consideration of customer service, wait times in lines, and revenue generated.
Management’s comments, in their entirety, are included in the appendix of this report.

Evaluation of Management’s Comments

Management comments are responsive to our recommendation. Management’s actions
taken or planned should correct the issues identified in the finding.

Use of Obsolete Equipment

In FY 2003, Greater South Carolina District officials continued to use 787 obsolete
machines and possibly incurred maintenance and repair expenses, even though Postal
Service policy discontinued the maintenance and repair support for the machines in
June 2000.8 Our review of vending equipment revenue reports indicated that
88 percent (69 of 78) of the machines did not meet minimum revenue requirements.
Additionally, during the first quarter of FY 2004, our review of vending equipment
revenue reports indicated that 89 percent (71 of 809) of the obsolete machines did not
meet minimum revenue requirements.

District officials stated that they continued to use and maintain the obsolete equipment
because of the potential adverse impact on customer service, to include increased wait
time in line for window sales, since replacement equipment is not available. As a result,
during FY 2003 and the first quarter of FY 2004, the district possibly incurred
maintenance and repair expenses that may have exceeded the revenue generated by
continuing to operate and maintain the obsolete machines. We were unable to


7
  This number excludes three currency changer machines, which do not generate revenue.
8
  This policy supplements Maintenance Management Order, MMO-018-96, June 21, 1996, Discontinuance of Support
for Obsolete Vending Machines. This MMO includes discontinuance of support for recently obsolete models of
vending machines announced in the Material Logistics Bulletin (MLB-PP-00-004), issued on May 18, 2000.
9
  This number excludes five currency changer machines, which do not generate revenue.



                                                    5
Self-Service Vending Program                                                                       DR-AR-04-007
 Greater South Carolina District


determine the amount of repair and maintenance expenses associated with the
machines because the Postal Service does not capture the data for each machine.10

Periodically, the Postal Service lists vending equipment as obsolete, meaning that the
equipment has exceeded its expected life cycle and will no longer receive support from
maintenance organizations. All inactive retail vending equipment items must be
reported to the district material management specialist. When retail vending equipment
items are obsolete or listed as excess, the Postal Service may consider them for
disposal action. Parts from obsolete machines may be salvaged and stored for
maintenance or repair of other compatible equipment. In June 2000, Postal Service
policy listed the obsolete vending equipment that should no longer receive support from
maintenance organizations.

By continuing to use and maintain obsolete machines, the district will possibly incur
repair and maintenance costs that may exceed the revenue generated. We recognize
management’s desire to provide customer service; however, because the Postal
Service does not capture repair and maintenance, management has no means of
assessing whether the benefits of operating the obsolete equipment outweigh the cost
to operate it. District officials indicated that plans will be made to replace the obsolete
machines when the new automated postal center machines are deployed to the district
locations.

Recommendation

We recommend the Manager, Greater South Carolina District, direct the Retail Manager
to:

2. Consider all feasible alternatives, and complete all necessary actions to eliminate
   repair and maintenance cost for the obsolete equipment.

Management’s Comments

Management agreed to consider all feasible alternatives and complete all necessary
actions to reduce repair and maintenance cost for obsolete equipment. District officials
have begun the process of removing the poorest performing obsolete equipment and
stated that impact on customer service will be considered in making decisions regarding
removal of equipment, particularly for those machines located in rural areas.

Evaluation of Management’s Comments

Management comments are responsive to our recommendation. Management’s actions
taken or planned should correct the issues identified in the finding.


10
     We plan to address this issue in a capping report to Postal Service Headquarters officials.



                                                            6
Self-Service Vending Program                                                 DR-AR-04-007
 Greater South Carolina District


Physical Observation of Vending Machines

Our physical observation of vending machines in the Greater South Carolina District
indicated that overall the machines were easily accessible, but not always operable.
Specifically, 40 percent (8 of the 20 machines) of the machines judgmentally selected
for review were not operating properly. Four of the eight machines had notices posted
as being out of service in April 2004; however, the inoperable machines were not listed
in VESS in May 2004. The remaining four machines would not take currency in
April 2004, and the inoperable machines were not listed in VESS in May 2004. District
officials indicated that the information for the machines was not listed in VESS because
employees inaccurately completed PS Forms 8130, Vending Equipment Sales and
Service Daily Activity Log.11 By not properly completing PS Forms 8130, Postal Service
managers have no means of ensuring vending machines are inoperable or in need of
repair potentially resulting in a loss of revenue.

VESS is a nationwide computerized reporting system for the Self-Service Vending
Program, which is used as a management tool for real-time tracking of vending cost
in relation to sales. Data maintained in the VESS database is generated from
PS Form 8130, Vending Equipment Sales and Service Daily Activity Log. Each
employee associated with self-service vending equipment must complete a
PS Form 8130 detailing the equipment serviced and maintained during each month.

Recommendation

We recommend the Manager, Greater South Carolina District, direct the Retail Manager
to:

3. Require employees to accurately complete Postal Service Forms 8130, Vending
   Equipment Sales and Service Daily Activity Log, for the eight machines, detailing the
   inoperable status for each machine, and consider retraining employees to accurately
   complete the forms.

Management’s Comments

Management stated that an action plan has been established requiring postmasters and
managers to report the status of vending operations on a daily basis, and out of order
equipment be reported to the Retail Manager. Additionally, the Vending Coordinator will
provide updated guidelines to all offices and service technicians by September 30,
2004.




11
     We plan to conduct an audit on the accuracy of data in VESS.



                                                         7
Self-Service Vending Program                                                DR-AR-04-007
 Greater South Carolina District


Evaluation of Management’s Comments

Management comments are responsive to our recommendation. Management’s actions
taken or planned should correct the issues identified in the finding.

The OIG considers recommendations 1, 2, and 3 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective action(s) are completed. These recommendations should not be closed in
the follow-up tracking system until the OIG provides written confirmation that the
recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions, or need additional information, please contact Debra D. Pettitt, Director,
Delivery and Retail, or me at (703) 248-2300.


/s/ Mary W. Demory

Mary W. Demory
Deputy Assistant Inspector General
 for Operations and Human Capital

Attachment

cc: Stephen Niedziela
    Sherrie P. Kyanko
    Gloria Richardson
    Carole Kirkland
    Steven R. Phelps




                                          8
Self-Service Vending Program                              DR-AR-04-007
 Greater South Carolina District


                        APPENDIX. MANAGEMENT’S COMMENTS




                                     9
Self-Service Vending Program            DR-AR-04-007
 Greater South Carolina District




                                   10
Self-Service Vending Program            DR-AR-04-007
 Greater South Carolina District




                                   11
Self-Service Vending Program            DR-AR-04-007
 Greater South Carolina District




                                   12
